App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Nos. 17-17395
RANDY RUDEL,
17-17460
Plaintiff-Appellee/
Cross-Appellant,
D.C. No.
v.
1:15-cv-00539JMS-RLP
HAWAI‘I MANAGEMENT
ALLIANCE ASSOCIATION,
OPINION
Defendant Appellant/
Cross-Appellee.
Appeal from the United States District Court
for the District of Hawai‘i J. Michael Seabright,
Chief District Judge, Presiding
Argued and Submitted June 12, 2019
Honolulu, Hawai‘i
Filed September 11, 2019
Before: Sidney R. Thomas, Chief Judge, and Consuelo
M. Callahan and Morgan Christen, Circuit Judges.
Opinion by Chief Judge Thomas
COUNSEL
Jordan J. Kimura (argued) and David J. Minkin,
McCorriston Miller Mukai MacKinnon LLP, Honolulu,
Hawai‘i; Clarissa A. Kang and Angel L. Garrett,
Trucker Huss, San Francisco, California; for DefendantAppellant/Cross-Appellee.

App. 2
Allen K. Williams (argued), Trecker Fritz & Williams,
Honolulu, Hawai‘i; Woodruff K. Soldner, Michael R.
Cruise, and R. Aaron Creps, Leavitt Yamane &
Soldner, Honolulu, Hawai‘i; for Plaintiff-Appellee/
Cross-Appellant.
Dianne Winter Brookins (argued) and Jasmine M.
Fisher, Alston Hunt Floyd & Ing, Honolulu, Hawai‘i, for
Amicus Curiae Hawai‘i Medical Service Association.
Kate S. O’Scannlain, Solicitor of Labor; G. William
Scott, Associate Solicitor for Plan Benefits Security;
Thomas Tso, Counsel for Appellate and Special Litigation; Kira Hettinger, Trial Attorney; United States Department of Labor, Office of the Solicitor, Plan Benefits
Security Division, Washington, D.C., for Amicus Curiae
R. Alexander Acosta, Secretary of Labor.
OPINION
THOMAS, Chief Judge:
In this case, we consider whether two Hawai‘i statutes restricting health insurers’ subrogation recovery
rights are saved from preemption under the Employee
Retirement Income Security Act of 1974 (“ERISA”)
and, if so, whether the statutes provide a relevant rule
of decision in a federal ERISA action to determine the
validity of the insurer’s lien on tort settlement proceeds.
We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review de novo the district court’s decisions regarding preemption. Winterrowd v. Am. Gen. Annuity Ins.

App. 3
Co., 321 F.3d 933, 937 (9th Cir. 2003). We affirm the
judgment of the district court, which held that the statutes were saved from preemption and provided the relevant rule of decision.
I
While riding his motorcycle home from work,
Randy Rudel was hit by a vehicle making an allegedly
illegal left turn. As a result of the accident, Rudel sustained numerous severe injuries, including partial amputations of his left leg and left forearm. Rudel had
health insurance benefits for his medical care from the
Hawai‘i Medical Alliance Association (“HMAA”) pursuant to an employee benefit plan governed by ERISA
(“the Plan”). In total, HMAA paid $400,779.70 for medical expenses.1
In addition to the money paid by HMAA, Rudel
also received a payment totaling $1.5 million in a tort
settlement with the driver of the vehicle that struck
him. The tort settlement agreement stipulated that the
payment was for “general damages” including medical
expenses and emotional distress, and did not include
special damages such as those that would “duplicate

1

HMAA paid these benefits as the result of a lawsuit brought
by Rudel, in which he asserted that HMAA refused to pay his expenses because he declined to sign a “Reimbursement Agreement”
that would have required him to agree to repay HMAA from any
recovery gained from a third party. HMAA eventually waived this
requirement and paid the benefits, leading to the dismissal of the
case.

App. 4
medical payments, no-fault payments, wage loss, [or]
temporary disability benefits.”
HMAA asserted a right to a portion of the tort settlement proceeds under the Plan, which provided to
HMAA the “right to be reimbursed for any benefits [it]
provide[s], from any recovery received from . . . any
third party or other source of recovery” including “general damages” from third-party settlements. As Rudel’s
settlements was for such general damages, HMAA
placed a lien for $400,779.70 on Rudel’s tort settlement.
Two Hawai‘i state statutes (collectively, “the Hawai‘i Statutes”) posed obstacles to HMAA’s ability to
recover: Hawai‘i Revised Statutes (“HRS”) §§ 431:13103 (a)(10) and 663-10. Read together, these statutes
prohibit insurance providers from seeking reimbursement for general damages from third-party settlements. They do, however, permit special damages to be
reimbursed if a state court determines the lien to be
valid, pursuant to the statutory terms.2 Thus, the Hawai‘i Statutes directly contradict the terms of the Plan,
which provided that the insurer could be reimbursed
for general damages.
Specifically, Haw. Rev. Stat. § 431:13-103 is a provision of the Hawai‘i insurance code that defines unfair
2

Under Hawai‘i law, “[s]pecial damages are often considered
to be synonymous with pecuniary loss and include such items as
medical and hospital expenses, loss of earnings, and diminished
capacity to work.” Dunbar v. Thompson, 901 P.2d 1285, 1294
(Haw. App. 1995).

App. 5
methods of competition and unfair or deceptive acts or
practices. Haw. Rev. Stat. § 431:13-103(a). Section
431:13-103(a)(10) defines one such unfair practice in
the business of insurance as:
Refusing to provide or limiting coverage available to an individual because the individual
may have a third-party claim for recovery of
damages; provided that:
(A) Where damages are recovered by judgment or settlement of a third-party claim, reimbursement of past benefits paid shall be
allowed pursuant to section 663-10.
Id.
Section 663-10(a), which is referenced in § 431:13103(a)(10), establishes the procedure for determining
if and when reimbursement can be permitted. Importantly, § 663-10 does not permit reimbursement for
general damages—it only permits reimbursement for
special damages. It reads:
In any civil action in tort, the court, before any
judgment or stipulation to dismiss the action
is approved, shall determine the validity of
any claim of a lien against the amount of the
judgment or settlement by any person who files
timely notice of the claim to the court or to the
parties in the action. The judgment entered, or
the order subsequent to settlement, shall include a statement of the amounts, if any, due
and owing to any person determined by the
court to be a holder of a valid lien and to be
paid to the lienholder out of the amount of the

App. 6
corresponding special damages recovered by
the judgment or settlement. . . . As used in
this section, lien means a lien arising out of a
claim for payments made or indemnified from
collateral sources, including health insurance
or benefits, for costs and expenses arising out
of the injury which is the subject of the civil
action in tort. If there is a settlement before
suit is filed or there is no civil action pending,
then any party may petition a court of competent jurisdiction for a determination of the validity and amount of any claim of a lien.
Haw. Rev. Stat. § 663-10(a) (emphasis added).
In state court, Rudel filed an action asserting that
the Hawai‘i Statutes nullified the inapposite terms of
the Plan so as to prevent HMAA from seeking reimbursement. Pursuant to the Hawai‘i Statutes, he filed
a petition for determination of validity of HMAA’s lien
in Hawai‘i Circuit Court of the Third Circuit. There, he
argued that, because his third-party settlement paid
only general damages and because the Hawai‘i Statutes only permit reimbursement for special damages,
HMAA was not entitled to reimbursement. HMAA contended that the state statutes were irrelevant to any
claims for reimbursement because the Plan was governed by ERISA, which preempts the Hawai‘i Statutes
and leaves the Plan terms to determine its subrogation
rights.
HMAA then removed the case to the District of
Hawai‘i. Rudel moved for remand, arguing that his action implicated only state law because he sought only

App. 7
“to keep benefits already provided by HMAA” rather
than to “recover benefits under the terms of the Plan.”
The district court denied Rudel’s remand motion,
holding that Rudel’s claim belonged in federal court because, in substance, he did not possess the benefits free
and clear of HMAA’s lien. Thus, for purposes of federal
jurisdiction, the action remained one “to recover benefits due to him under the terms of his plan, to enforce
his rights under the terms of the plan, or to clarify his
rights to future benefits” under ERISA § 502(a)(1)(B).
Rudel then filed a motion for determination of validity of HMAA’s lien pursuant to the Hawai‘i Statutes.
In response, HMAA filed a motion for summary judgment, arguing that Rudel’s action was preempted by
ERISA so that the Plan provisions governed, and its
lien was thus valid.
In a detailed order, the district court denied
HMAA’s motion for summary judgment and granted,
in part, Rudel’s motion. The district court held that the
Hawai‘i Statutes were saved from preemption under
ERISA § 514, and that § 514 also provided the relevant
rule of decision. The court ordered that further proceedings were required to determine the validity and
amount of the lien under the Hawai‘i Statutes. However, the parties stipulated that if the Hawai‘i Statutes
provided the relevant rule of decision, HMAA had no
valid lien claim.

App. 8
HMAA timely appealed the district court order.3
Rudel timely cross-appealed on the issue of whether
the district court erred in denying his initial motion for
remand.
II
This appeal turns on the application and interplay
of two ERISA statutes implicating preemption of
claims: § 502 (codified at 29 U.S.C. § 1132) and § 514
(codified at 29 U.S.C. § 1144). These “two strands to
ERISA’s powerful preemptive force,” Cleghorn v. Blue
Shield of Cal., 408 F.3d 1222, 1225 (9th Cir. 2005) differ in their purpose and function.
Section 502 sets forth “a comprehensive scheme
of civil remedies to enforce ERISA’s provisions.” Id.
Section 502’s purpose is to ensure that federal courts
remain the sole forum and the sole vehicle for adjudicating claims for benefits under ERISA. Marin Gen.
Hosp. v. Modesto & Empire Traction Co., 581 F.3d 941,
945 (9th Cir. 2009). Asserted remedies and causes of
action that conflict with with ERISA’s civil enforcement scheme are deemed preempted. If, through the
application of § 502(a), a state law claim asserted in
state court is completely preempted, then the state
3

The Hawai‘i Medical Service Association (“HMSA”), a
health care insurer in the State of Hawai‘i, filed an amicus curiae
brief in support of HMAA’s position. The Secretary of Labor filed
an amicus curiae brief in support of neither party and requesting
affirmance of the district court’s denial of Rudel’s motion for remand and of the district court’s denial of HMAA’s motion for summary judgment.

App. 9
action may be removed to federal court. Federal jurisdiction exists under § 502(a) if: (1) the individual could
have brought his claim under this ERISA provision;
and (2) no other independent legal duties are implicated by the defendant’s actions. Aetna Health Inc. v.
Davila, 542 U.S. 200, 210 (2004). When a claim is removed to federal court, the state law claim is reconfigured as a federal ERISA cause of action under § 502(a).
Then, an analysis is undertaken to examine whether
the transformed cause of action conflicts with ERISA.
If so, it is preempted. If not, it remains viable as a federal ERISA cause of action.
Section 514 contains ERISA’s express preemption
provision. It expressly preempts “any and all State
laws insofar as they may now or hereafter relate to any
employee benefit plan[.]” 29 U.S.C. § 1144(a). However,
§ 514 saves from preemption “any law of any State
which regulates insurance, banking, or securities.” 29
U.S.C. § 1144(b)(2)(A). The saving clause functions to
preserve a state’s traditional regulatory power over insurance, banking, and securities. Gobeille v. Liberty
Mut. Ins. Co., 136 S. Ct. 936, 943 (2016). Section 514,
however, does not confer federal jurisdiction. Marin
Gen. Hosp., 581 F.3d at 945.
If a case is properly before a federal court under
§ 502, a state statute that is saved from preemption
under § 514, and that does not conflict with § 502, can
“suppl[y] the relevant rule of decision.” UNUM Life Ins.
Co. of Am. v. Ward, 526 U.S. 358, 377 (1999). Put another way, a statute saved from express preemption
under § 514 can—in some circumstances—provide the

App. 10
rule of law used by a federal court to decide a claim for
the recovery, enforcement, or clarification of benefits in
an action removed pursuant to § 502(a).
In sum, our task is to ascertain whether: (1)
§ 502(a) completely preempted the Hawai‘i Statutes,
allowing the case to be removed to federal court, (2) the
Hawai‘i Statutes are saved from preemption pursuant
to § 514, and (3) the Hawai‘i Statutes provide the rule
of decision for the newly reconfigured federal ERISA
action.
With those general principles in mind, we turn to
a more detailed analysis of the issues.
III
We first examine whether the district court
properly exercised federal jurisdiction over Rudel’s
state law claims under § 502(a). “Ordinarily, federal
question jurisdiction does not lie where a defendant
contends that a state-law claim is preempted under
federal law.” Fossen v. Blue Cross & Blue Shield of
Mont., Inc., 660 F.3d 1102, 1107 (9th Cir. 2011). However, if a federal cause of action completely preempts a
state law claim, then the action “necessarily arises under federal law.” Beneficial Nat’l. Bank v. Anderson, 539
U.S. 1, 10 (2003). The complete preemption doctrine applies “where the preemptive force of federal law is so
‘extraordinary’ that it converts state common law
claims into claims arising under federal law for the
purposes of jurisdiction.” K2 Am. Corp. v. Roland Oil &
Gas, LLC, 653 F.3d 1024, 1029 (9th Cir. 2011) (quoting

App. 11
Holman v. Laulo-Rowe Agency, 994 F.2d 666, 668 (9th
Cir. 1993)).
The complete preemption doctrine “prevent[s] a
plaintiff from avoiding a federal forum when Congress
has created a federal cause of action with the intent
that it provide the exclusive remedy for the particular
grievance alleged by the plaintiff.” Hansen v. Grp.
Health Coop., 902 F.3d 1051, 1057–58 (9th Cir. 2018)
(quoting Arthur R. Miller, Artful Pleading: A Doctrine
in Search of Definition, 76 TEX. L. REV. 1781, 1785
(1998)). Therefore, when complete preemption exists,
the state law action may be removed to federal court.
Fossen, 660 F.3d at 1107.
When complete preemption applies, “a state-law
claim ceases to exist[,]” Hansen, 902 F.3d at 1058, because, upon removal to federal court, “the state-law
claim is simply ‘recharacterized’ as the federal claim
that Congress made exclusive.” Id. (quoting Vaden v.
Discover Bank, 556 U.S. 49, 61 (2009)).4
As we have noted, § 502 “ ‘set[s] forth a comprehensive civil enforcement scheme’ that completely
preempts state-law ‘causes of action within the scope
of th[es]e civil enforcement provisions.’ ” Fossen, 660
F.3d at 1107 (alterations in original) (quoting Davila,
542 U.S. at 208–09)). Thus, § 502 dictates whether a
federal court can exercise jurisdiction over a particular
4

Specifically, upon removal, the district court has the option
to “treat the artfully pleaded claim for all purposes as the correct
federal claim, or else dismiss it with leave to formally replead the
claim under federal law.” Hansen, 902 F.3d at 1058.

App. 12
claim for benefits. Marin Gen. Hosp., 581 F.3d at 945.
According to its terms, an action “to recover benefits
due . . . under the terms of [a] plan, to enforce . . . rights
under the terms of the plan, or to clarify . . . rights to
future benefits,” 29 U.S.C. § 1132(a)(1)(B), will be heard
in a federal court.
Federal jurisdiction exists under § 502(a) if: (1) the
individual could have brought his claim under this
ERISA provision; and (2) no other independent legal
duties are implicated by the defendant’s actions.
Davila, 542 U.S. at 210. In determining whether a petitioner could have brought his claim under ERISA
§ 502(a)(1)(B), we examine the substance of the claim,
rather than its form. Id. at 214.
A
Davila’s first requirement asks whether Rudel
could have brought his claims under ERISA § 502(a).
We agree with the Secretary of Labor’s position that
the district court correctly held that he could because,
in substance, Rudel’s claim was one to recover benefits
or to clarify his rights to benefits pursuant to the Plan.
See 29 U.S.C. § 1132(a)(1)(B). HMAA’s lien on Rudel’s
tort settlement jeopardized his ability to retain the
benefits HMAA had previously paid; indeed, had
HMAA been successful in its claim for reimbursement,
Rudel would have had to pay back the $400,779.70 he
originally received from HMAA. In this way, the substance of Rudel’s claim could be restated as “Rudel has
not fully ‘recovered [the benefits] because [he] has not

App. 13
obtained the benefits free and clear of [HMAA’s]
claims.’ ” Noetzel v. Hawai‘i Med. Serv. Ass’n, 183
F. Supp. 3d 1094, 1103 (D. Haw. 2016). Thus, his action
properly could be characterized as a § 502(a) action
that “seeks to determine his entitlement to retain the
benefits based on the terms of the plan.” Arana v.
Ochsner Health Plan, 338 F.3d 433, 438 (5th Cir. 2003)
(en banc).
In reaching the conclusion that challenges to a
plan’s right to reimbursement are properly characterized as § 502(a) claims, we join the Third, Fourth, and
Fifth Circuits. Id.; see also Levine v. United Healthcare
Corp., 402 F.3d 156, 163 (3d Cir. 2005) (holding that a
claim premised on unlawful reimbursement requirements was preempted by § 502 because it was a “claim
for ‘benefits due’ ” under the terms of a plan); Singh v.
Prudential Health Care Plan, Inc., 335 F.3d 278, 291
(4th Cir. 2003) (characterizing reimbursement as a
§ 502 claim to ensure that benefits are not “diminished
by [a] payment” to insurers).5

5

The Second Circuit has held to the contrary. Wurtz v. Rawlings Co., LLC, 761 F.3d 232, 242 (2d Cir. 2014). It reasoned that
because the claims at issue were saved from preemption under
§ 514, they could not be completely preempted under § 502, and
federal jurisdiction did not exist. However, that theory is inconsistent with our precedent holding that “[p]reemption under
ERISA section 502(a) is not affected by [§ 514.]” Cleghorn, 408
F.3d at 1226 n.6. And we find the reasoning of the other Circuits
persuasive.

App. 14
B
Satisfying Davila’s second requirement requires
there be no legal duty implicated by the defendant’s
actions independent from a duty to provide benefits
pursuant to § 502. Davila, 542 U.S. at 210. The district
court determined that no independent legal duties
were implicated by HMAA’ s actions, and we agree.
Here, any legal duty HMAA had to provide Rudel
with benefits is dependent on the amount owed and
paid pursuant to the Plan. Without the Plan obligating
HMAA to pay medical expenses, Rudel would be unable to claim that HMAA was not entitled to reimbursement because Rudel would not have received any
money in the first place. Thus, Rudel’s assertions that
the Hawai‘i Statutes provide an independent legal
duty prove unavailing.
In addition, § 663-10 permits “any person who files
timely notice of the claim to the court” to have the validity of an insurer’s lien determined by a court. Haw.
Rev. Stat. § 663-10. By its own permissive terms, the
statute permits, but does not obligate, a claimant to
ask a court to determine the validity of a lien. The Hawai‘i Statutes do not impose any legal duty upon a plan
administrator like HMAA.
Thus, both Davila’s requirements are satisfied.
Therefore, Rudel’s state law claims were completely
preempted for purposes of jurisdiction by § 502, and
the district court properly denied Rudel’s remand motion.

App. 15
IV
Given that the district court properly exercised
federal jurisdiction, we must determine whether the
Hawai‘i Statutes are preempted by ERISA, or whether
they are saved from preemption and provide the relevant rule of decision. There are two types of ERISA
preemption: (1) express preemption under § 514 and
(2) preemption due to conflict with ERISA’s civil remedial scheme under § 502. Fossen, 660 F.3d at 1107.
A
We first address preemption under § 514, which
also contains ERISA’s “saving clause.” Section 514 expressly preempts any and all state laws insofar as they
may “now or hereafter relate to any employee benefit
plan[.]” 29 U.S.C. § 1144(a). However, § 514 saves from
preemption “any law of any State which regulates insurance, banking, or securities.” 29 U.S.C. § 1144(b)(2)(A).
There is no doubt that the Hawai‘i Statutes relate
to an employee benefit plan, so the only question is
whether they are saved from preemption under § 514
because they regulate insurance. To determine that,
we ask whether the law: (1) is “specifically directed toward entities engaged in insurance;” and (2) “substantially affect[s] the risk pooling arrangement between
the insurer and the insured.” Orzechowski v. Boeing Co.
Non-Union Long-Term Disability Plan, Plan No. 625,
856 F.3d 686, 693 (9th Cir. 2017) (quoting Kentucky
Ass’n of Health Plans, Inc. v. Miller, 538 U.S. 329, 342
(2003)).

App. 16
1
The district court properly held that the Hawai‘i
Statutes are “specifically directed toward entities engaged in insurance.” See id. Under ERISA, “[a] law is
specifically directed toward entities engaged in insurance if it is ‘grounded in policy concerns specific to the
insurance industry.’ ” Id. (quoting UNUM Life Ins. Co.,
526 U.S. at 372). “It is well-established that a law
which regulates what terms insurance companies can
place in their policies regulates insurance companies.”
Standard Ins. Co. v. Morrison, 584 F.3d 837, 842 (9th
Cir. 2009).
There is no doubt that § 431:13-103 regulates insurance, given that it is embedded in the insurance
code and regulates the extent to which insurers may
limit insurance coverage.
Section 663-10, however, is a general statute for
determination of civil remedies. Haw. Rev. Stat. § 66310. Thus, the question is whether § 663-10 and
§ 431:13-103 should be read together as laws that regulate insurance, or whether they are completely independent statutory provisions.
Employing the familiar tools of statutory interpretation, we begin with the plain language of the statute,
reading the words in the context of the overall statutory scheme. Rainero v. Archon Corp., 844 F.3d 832, 837
(9th Cir. 2016). Here, § 431:13-103 expressly crossreferences § 663-10, providing in relevant part that
“[w]here damages ‘are recovered by judgment or settlement of a third-party claim, reimbursement of past

App. 17
benefits paid shall be allowed pursuant to section 66310.’ ” Haw. Rev. Stat. § 431:13-103. Thus, the plain statutory text demonstrates that § 663-10, insofar as it
affects insurance subrogation rights, must be read in
conjunction with § 431:13-103.
The legislative history buttresses the conclusion
that the two statutes were intended to work in tandem
as to insurance claims. The Hawai‘i legislature enacted
§ 663-10 in 1986 to allow health insurers to seek reimbursement for special damages recovered in a judgment or settlement that duplicated the amounts
already paid, thereby prohibiting double recovery. See
Yukumoto v. Tawarahara, 400 P.3d 486, 497 (Haw.
2017). But in 2000, the Hawai‘i legislature decided to
limit this right to reimbursement and subrogation. To
do so, it passed S.B. No. 2563, “the purpose of which
was to ‘make it an unfair or deceptive act to limit or
withhold coverage under insurance policies because a
consumer may have a third-party claim for damages.’ ”
Id. (quoting H. Stand. Comm. Rep. No. 1330-00, in Haw.
H. J., at 1515 (Haw. 2000)). In order to create a “fair,
uniform and comprehensive procedure” that would
govern reimbursements related to third-party recoveries, the legislature amended § 663-10 to expressly include “health insurance or benefits.” Id.
This amendment, however, brought about the unforeseen consequence of exempting health insurance
providers from the prohibition of unfair practices outlined in the new statute, thus permitting them to refuse to provide or to limit coverage to insured
individuals with a third-party claim. See id. at 498; see

App. 18
also S. Stand. Comm. Rep. No. 107, in Haw. S. J., at 987
(Haw. 2001). To correct this “oversight,” the legislature
enacted S.B. 940, which clarified that:
Refusing to provide or limiting health coverage to persons who have third-party claims for
damages is not permitted, except for reimbursement under section 663-10 [HRS]. This
measure makes such acts unfair insurance
practices under [§ 431:13-103] to eliminate
any doubt that health insurers have always
been subject to these limitations under section 663-10, HRS.
Id. at 499 (quoting Conf. Comm. Rep. No. 67-02, in Haw.
H. J., at 1783 (Haw. 2002)).
This language, as well as the fact that § 431:13103 explicitly incorporates § 663-10, leaves no doubt
that the Hawai‘i Statutes must be read together. Indeed, under Hawai‘i law, “HRS §§ 663-10 and 43113:103(a)(10) comprehensively address [ ] and limit[ ] a
health insurers’ rights to reimbursement and subrogation.” Id. (emphasis added).
Because the statutes must be read together,
HMAA’s argument that § 663-10 cannot regulate insurance is not persuasive. HMAA relies on the Third
Circuit’s opinion in Levine, where the court held that
even though a statute’s “legislative history . . . indicate[d]
an intent to lighten the burden on the liability insurance industry,” the “plain language of the statute”—
which stated that the statute applied to “any civil action”—controlled. 402 F.3d at 165 (emphasis omitted).

App. 19
The Hawai‘i Statutes, however, are easily distinguished from the statute at issue in Levine because, in
Levine, there was only one statute at issue—one that
did not regulate insurance. Id. at 164 & n.9. Here,
§ 431:13-103 unquestionably regulates insurance, and
expressly incorporates § 663-10’s methodology for determining when health insurance reimbursements will
be permitted. Read together, the terms of the Hawai‘i
Statutes regulate the insurance industry.
HMAA still urges us to read § 663-10 in isolation,
however, because there is no private right of action to
bring a claim under § 431:13-103. See also Haw. Rev.
Stat. § 431:13-107 (noting that all remedies and proceedings in the insurance code “are to be invoked solely
and exclusively by the commissioner”). It argues that
Rudel’s action for a lien determination was, by default,
a private claim under § 663-10, rendering § 431:13-103
irrelevant to the determination whether the statutes
are specifically directed toward insurance.
This argument is unpersuasive for two reasons.
First, it is premised on a belief that Rudel brought his
action under § 663-10. To the contrary, once the case
was removed to district court pursuant to § 502(a), the
court considered Rudel’s claim as a § 502(a) action for
benefits; in effect, Rudel’s claim was brought under
§ 502(a), not § 663-10. Second, HMAA again assumes
that the Hawai‘i Statutes can be read separately. As
discussed, this bifurcated view ignores the comprehensive scheme demanded by Hawai‘i law.

App. 20
Thus, the district court properly held that §§ 43113:103(a) and 663-10 are “specifically directed toward
entities engaged in insurance.”
2
The next question is whether the Hawai‘i Statutes
substantially affect the risk pooling arrangement between the insurer and the insured. A state statute substantially affects the risk pooling arrangement
between the insurer and the insured when it impacts
the terms by which insurance providers must pay plan
members. See Morrison, 584 F.3d at 844–45. This requirement “ensures that [statutes] are targeted at insurance practices, not merely at insurance companies.”
Id. at 844 (noting that a statute that mandates the salary of an insurance company employee would not affect risk pooling because it is not directed at insurance
practices).
The district court properly concluded that the Hawai‘i Statutes substantially affect risk pooling. Read
together, §§ 431-13:103(a) and 663-10 prohibit an insurer from seeking certain types of reimbursement,
thus impacting the eventual net value of any payment
made to a plan member—in other words, due to the
Hawai‘i Statutes, the insurers face more risk than they
would otherwise. See Singh, 335 F.3d at 286 (analyzing
a similar antisubrogation scheme and noting that “it is
difficult to imagine an antisubrogation law of this type
as anything other than an insurance regulation, as it

App. 21
addresses who pays in a given set of circumstances and
is therefore directed at spreading policyholder risk”).
3
In sum, the district court correctly concluded that
the Hawai‘i Statutes are saved from express preemption under § 514 because they are directed at insurance practices and impact risk pooling.
B
Having concluded that the statutes are saved from
preemption under § 514, we must determine whether
the Hawai‘i Statutes supply the rule of decision for Rudel’s reconfigured federal ERISA claim. A state statute
may provide a relevant rule of decision in an ERISA
action if: (1) it is saved from preemption under § 514;
and (2) it does not impermissibly expand the scope of
liability outlined in § 502(a). Rush Prudential HMO,
Inc. v. Moran, 536 U.S. 355, 365–81 (2002); Singh, 335
F.3d at 282–83.
1
Given that the Hawai‘i Statutes are saved from
preemption, the only remaining question is whether
the statutes impermissibly expand the scope of liability under § 502(a). This requirement is founded
squarely in the statute and in ERISA’s comprehensive
civil enforcement scheme. Under that rubric, Rudel is
prohibited from recovering remedies with his

App. 22
reconfigured federal ERISA claim that could not be
awarded under § 502(a). As the Supreme Court has observed, “even a state law that can arguably be characterized as ‘regulating insurance’ will be pre-empted if
it provides a separate vehicle to assert a claim for benefits outside of, or in addition to, ERISA’s remedial
scheme.” Davila, 542 U.S at 217–28.
More specifically, to determine whether a state
statute is preempted on the merits under § 502(a) as
conflicting with ERISA’s remedial scheme, we ask
whether the statute would “significantly expand[ ] the
potential scope of ultimate liability imposed upon [insurance providers].” Id. at 378–79. This “preemptive effect depends on the nature of the state remedy,
including the availability of non-ERISA compensatory
and punitive damages.” Elliot v. Fortis Benefits Ins. Co.,
337 F.3d 1138, 1146 (9th Cir. 2003).
Although we must ensure that state remedies do
not expand the scope of relief available under ERISA,
we begin with a “ ‘starting presumption that Congress
d[id] not intend to supplant . . . state laws regulating a
subject of traditional state power’ unless that power
amounts to ‘a direct regulation of a fundamental
ERISA function.’ ” Depot, Inc. v. Caring for Montanans,
Inc., 915 F.3d 643, 666 (9th Cir. 2019) (alterations in
original) (quoting Gobeille v. Liberty Mut. Ins. Co., 136
S. Ct. 936, 943 (2016)), petition for cert. filed, No. 19-77
(Jul. 16, 2019); see also Metro. Life Ins. Co. v. Massachusetts, 471 U.S. 724, 747 (1985) (noting that the existence of § 514 evidences “the congressional decision to
‘save’ local insurance regulation”).

App. 23
In this case, the district court properly concluded
that the Hawai‘i Statutes do not impermissibly expand
ERISA’s remedial scope. On removal, Rudel’s claim
was effectively converted into a § 502(a) claim for benefits. The only question is the scope of the benefits to
be awarded. The Hawai‘i Statutes do not create a
method for Rudel to collect additional benefits, nor do
they subject the insurer to any additional liability. In
short, the statutes do not create additional remedies
not permitted by § 502(a). The Hawai‘i Statutes only
impact the insurer’s subrogation rights against a third
party tort settlement fund. There are no statutory provisions of ERISA that address reimbursement limitations. Thus, no conflict exists between the Hawai‘i
Statutes and ERISA.
The Supreme Court’s decision in Rush is instructive. In Rush, the Illinois state statute at issue permitted patients to seek an independent physician’s
opinion regarding the medical necessity of a procedure.
536 U.S. at 361. If the independent physician determined that the procedure was medically necessary, the
insurance provider was required to cover the service.
Id. at 383. The insurance provider argued that the statute expanded the remedies permitted under § 502, in
part because the statute created an alternative dispute
resolution process that would impermissibly expand
ERISA’ s remedial scheme. Id. at 383–84.
However, the Rush majority rejected this argument. It held the state statute did not provide a scheme
that would “give the independent reviewer a freeranging power to construe contract terms” and exceed

App. 24
ERISA’ s boundaries. Id. at 382–83. Instead, the second-opinion procedure merely permitted an alternative opinion regarding whether benefits were due—at
all times, the action remained one for the recovery of
benefits pursuant to an ERISA plan. Id. at 382–83.
Thus, the second-opinion procedure for dispute resolution did not enlarge the scope of liability under ERISA.
Id. at 383–85.
Similarly, in Singh, the Fourth Circuit held that a
state antisubrogation statute that prohibited insurance providers from seeking reimbursement from a
third-party settlement was saved from preemption.
335 F.3d at 281. The Fourth Circuit reasoned that the
statute “simply mandat[ed] or prohibit[ed] certain
terms of policy coverage” and did not “force a choice between State regulation of insurance and the prescribed
remedies of § 502(a).” Id. at 287–88. The court pointed
out:
While ERISA’ s civil enforcement scheme contained in § 502(a) creates an exclusive set of
remedies that even a state regulation of insurance may not supplement or supplant, ERISA
‘contains almost no federal regulation of the
terms of benefit plans’ that would conflict with
a substantive provision such as the subrogation prohibition.
Id. at 288 (quoting Metro. Life Ins., 471 U.S. at 732).
Thus, the state antisubrogation statute merely
“operate[d] . . . to define the scope of a benefit” provided
by an ERISA-governed plan. Id. at 288. It did not

App. 25
create a new remedy. Id. at 289; see also UNUM Life
Ins. Co., 526 U.S. at 376 n.7 (holding that a California
statute providing employers be designated an insurer’s
agent for purposes of filing ERISA claims was not
preempted because the petitioner sought only benefits
due pursuant to ERISA, and not separate remedies).
The situation is identical here. The Hawai‘i Statutes operate to define the scope of a benefit provided
by the Plan; they do not create additional remedies not
permitted by ERISA. Thus, because the statutes do not
impermissibly expand the scope of liability outlined in
§ 502(a), they are not conflict preempted and can apply
the rule of decision.
2
Elliot does not compel a contrary result, as HMAA
contends. There, we held as preempted on the merits
Montana’s Unfair Trade Practices Act (“UTPA”)—a
statute that, in relevant part, permitted awards of punitive damages. 337 F.3d at 1141, 1147. We held that a
petitioner’s claim “relie[d] in the first instance on Montana’s UTPA’s civil enforcement provision” because it
“provide[d] damages above and beyond those provided
in ERISA, including punitive damages.” Id. at 1147.
Thus, the statute was completely preempted under
§ 502. Id.; see also Ingersoll-Rand Co. v. McClendon,
498 U.S. 133, 136 (1990) (holding preempted a Texas
cause of action that converted an equitable claim under ERISA to a claim for damages under state law);
Pilot Life Ins. Co. v. Dedeaux, 481 U.S. 41, 50–56 (1987)

App. 26
(holding preempted Mississippi state common law
causes of action for claims-processing errors that permitted punitive damages because ERISA’s civil enforcement scheme “would make little sense if the
remedies available to ERISA participants . . . could be
supplemented or supplanted by varying state laws”);
Barber v. UNUM Life Ins. Co., 383 F.3d 134, 141 (3d
Cir. 2004) (holding preempted a state remedy that permitted ERISA-plan participants to recover punitive
damages for bad faith conduct).
Thus, because the Hawai‘i Statutes merely provide the analytical framework by which the court is to
decide the § 502(a) action and do not create causes of
action that permit recovery beyond that permitted under ERISA, the Hawai‘i Statutes are distinguishable
from the state statutes in Elliot, Ingersoll-Rand, Pilot
Life, and the other cases cited by HMAA and amicus
curiae HMSA. All of those cases involved state statutes
that provided additional damages or remedies outside
the scope of ERISA’s remedial scheme. We agree with
the Secretary of Labor that here is no such provision
here.
And, as was true in Singh, the Hawai‘i Statutes do
not conflict with an ERISA provision because there are
no statutory provisions of ERISA that address reimbursement limitations. See also Depot, Inc., 915 F.3d at
667 (holding that state law claims that did not have
corresponding, conflicting provisions in ERISA did not
provide an impermissible alternative enforcement
mechanism). The Hawai‘i Statutes merely regulate the
terms that an ERISA plan provider may employ—they

App. 27
do not offer any benefits that conflict with those provided by ERISA.
3
HMAA argues that permitting a court to decide a
petition for a determination of lien pursuant to
§§ 431:13-103 and 663-10 creates a new judicial vehicle for deciding claims outside the bounds of ERISA’s
comprehensive civil enforcement scheme. Similarly,
amicus curiae HMSA argues, “[T]he Hawai‘i statutes
at issue provide for an entire judicial process alternative to § 502, creating precisely the type of adjudication
that falls within Pilot Life’s categorical bar.” HMAA
points out that the state statute in Singh did not
provide a separate procedure to determine the amount
and validity of the lien, but instead prohibited reimbursement outright. HMAA relies in part on the suggestion in Rush that a “conventional evidentiary
hearing” held during an arbitration might be
preempted. 536 U.S. at 383.
These arguments are not persuasive. In Rush, the
Court’s primary concern in discussing an alternate
form of arbitration was that such a scheme would
undermine “the manifest congressional purpose to confine adjudication of disputes to the courts.” Id. at 381–
82. Here, because the case was removed under § 502(a)
and effectively became a § 502(a) action for benefits,
there is no question that the federal courts remain the
forum—and ERISA the vehicle—for determining Rudel’s entitlement to any benefits. See id. at 379–80

App. 28
(noting that though the independent review process in
that case could be dispositive of the validity of a claim
for benefits, it did not impermissibly enlarge the scope
of liability under § 502(a)).
4
Finally, HMAA suggests that because the state
statutes were completely preempted under § 502(a),
they necessarily must be in conflict with § 502(a) and
therefore cannot form the basis for decision. This argument confuses complete preemption for jurisdictional
purposes with conflict preemption. As we have discussed, by operation of § 502(a), Rudel’s state law
claims are completely preempted, allowing the insurer
to remove the case to federal court. But, although his
state law claims are extinguished, his federal ERISA
rights under § 502 are not. The Hawai‘i Statutes do not
conflict with § 502, so conflict preemption does not apply, and because the Hawai‘i Statutes are saved from
express preemption under § 514, they may supply the
rule of decision for Rudel’s federal ERISA action.
C
Thus, the district court correctly concluded that
Rudel’s claims were not ERISA-preempted. Because
the Hawai‘i Statutes regulate insurance and are directed at insurance practices and impact risk pooling,
they are saved from express preemption under § 514.
And because they do not impermissibly expand the

App. 29
scope of available ERISA remedies, the Hawai‘i Statutes are not preempted by the merits under § 502(a).
V
In sum, the district court properly exercised federal jurisdiction and correctly denied Rudel’s remand
motion because his state law claims could have been
brought as ERISA claims. The court also correctly held
that the Hawai‘i Statutes were saved from preemption
pursuant to § 514, were not subject to conflict preemption under § 502, and provided the relevant rule of decision in the removed action. Because the parties
stipulated that HMAA had no valid lien if the Hawai‘i
Statutes provided the relevant rule of decision, the district court also properly entered a final judgment in
Rudel’s favor. We need not—and do not—reach any
other issue urged by the parties. All pending motions
are denied as moot.
AFFIRMED.

App. 30
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
RANDY RUDEL,

Civ. No. 15-00539 JMS-RLP

Petitioner,

ORDER (1) GRANTING
IN PART PETITIONER’S
vs.
MOTION FOR DETERHAWAII MANAGEMENT MINATION OF VALIDITY
ALLIANCE ASSOCIATION, OF LIEN, ECF NO. 38;
AND (2) DENYING
Respondent.
RESPONDENT’S MOTION
FOR PARTIAL SUMMARY
JUDGMENT, ECF NO. 40
ORDER (1) GRANTING IN PART PETITIONER’S
MOTION FOR DETERMINATION OF VALIDITY
OF LIEN, ECF NO. 38; AND (2) DENYING
RESPONDENT’S MOTION FOR PARTIAL
SUMMARY JUDGMENT, ECF NO. 40
(Filed Oct. 31, 2017)
I.

INTRODUCTION

On December 29, 2014, Petitioner Randy Rudel
(“Rudel”) crashed his motorcycle into a vehicle allegedly making an illegal left turn in front of him. ECF
No. 1-2 at 7. He suffered catastrophic injuries, resulting in multiple surgeries and partial amputations of
his left leg and forearm. Id. Because of the accident,
Respondent Hawaii Management Alliance Association
(“HMAA”) paid $400,779.70 in health-insurance benefits under Rudel’s HMAA benefit plan (“the Plan”).
ECF No. 49-6 at 1-5. Rudel also received a $1.5 million

App. 31
third-party tort settlement from the vehicle-driver’s
liability insurance carrier. ECF No. 1-2 at 14. HMAA
then claimed a lien against Rudel, seeking reimbursement of the $400,779.70 from his $1.5 million settlement, based on a reimbursement provision in the Plan.
ECF No. 49-6 at 1. Rudel filed this action to determine
the validity of HMAA’s claim of lien.
The court faces two Motions. Rudel filed a “Motion for Determination of Validity of Claim of Lien of
[HMAA],” ECF No. 38, ultimately arguing that HMAA
is not entitled to any reimbursement. HMAA responded with a Motion for Partial Summary Judgment, ECF No. 40, contending that Rudel’s action is
preempted by the Employee Retirement Income Security Act of 1974 (“ERISA”), 29 U.S.C. §§ 1001 et seq.,
and that its lien is valid under the Plan. The Motions
raise complex and important questions involving two
distinct ERISA-preemption doctrines as applied to two
interrelated Hawaii statutory provisions, Hawaii Revised Statutes (“HRS”) §§ 431:13-103(a)(10) and 66310.
Based on the following, Rudel’s Motion is GRANTED
in part, and HMAA’s Motion is DENIED.
II.

BACKGROUND

A. Factual Background
The circumstances of the December 29, 2014 accident, as well as the severe nature of Rudel’s injuries,
are not at issue in these Motions. For present purposes,

App. 32
it is undisputed that Rudel was a member of an ERISA
plan—an HMAA employee-sponsored health benefits
plan that provided him certain insurance benefits, including medical care, treatment, and services for injuries resulting from the accident. ECF No. 49-3 at 2.1
Nor is it disputed that HMAA eventually paid
$400,779.70 in accident-related expenses (at least as of
November 16, 2015) out of total charges of $634,839.03.2
1

“[HMAA] dba Hawaii Medical Assurance Association” is “a
Hawaii Mutual Benefit Society.” ECF No. 41-2 at 1; see also ECF
No. 38-3 at 1 (“[HMAA] is registered with the State of Hawaii Department of Commerce and Consumer Affairs, Insurance Division, as a Mutual Benefit Society[.]”).
2
HMAA paid Rudel’s medical expenses after Rudel filed a
related suit on June 19, 2015 against HMAA under ERISA
§ 502(a), 29 U.S.C. § 1132(a). See Rudel v. Haw. Mgmt. All. Ass’n,
Civ. No. 15-00236 HG-BMK (D. Haw.). According to that suit,
HMAA was refusing to pay Rudel’s expenses because he declined
to sign (claiming parts were contrary to Hawaii law as an illegal
insurance practice) a “Reimbursement Agreement” with a clause
stating:
I agree to repay HMAA from any recovery received by
me or on my behalf from any other person or party,
even if the recovery does not specifically include medical expenses, is described as general damages only, or
is less than the total actual or alleged loss suffered due
to my injury or illness. HMAA shall be paid first from
such recovery and shall have a first lien against any
such recovery to the extent of its total payment of benefits. This lien will attach to and follow any recovery
proceeds even if the proceeds are distributed to another
person or entity.
ECF No. 1-2 at 149. For its part, HMAA had apparently refused
to pay based on certain terms in the Plan, and on a provision in
HRS § 431:13-103(a)(10)(C)(ii) (“For entities licensed under chapter 432 or 432D: . . . Payment of claims to an individual who
may have a third-party claim for recovery of damages may be

App. 33
ECF No. 49-6. The Petition also establishes that, on
August 17, 2015, Allstate Insurance Company (which
covered the driver of the other vehicle) paid Rudel $1.5
million under a settlement that Allstate represented
was “the total applicable available policy limits.” ECF
No. 1-2 at 54. The settlement agreement includes a
clause stating:
The consideration paid herein constitutes general damages incurred on the account of personal injury or sickness and/or emotional
distress resulting therefrom, as defined by
IRS Code Section 104(a)(2) and does not duplicate medical payments, no-fault payments,
wage loss, temporary disability benefits or
other special damages previously received by
Randy Rudel.
Id. at 52. The Petition contends that the value of Rudel’s claim against the driver/tortfeasor exceeded $5.9
million, including $4 million in general damages. Id. at
11. Finally, the record establishes that on November
16, 2015, HMAA claimed (and still claims) a lien of
$400,779.70 against Rudel’s $1.5 million settlement.
ECF No. 49-6.

conditioned upon the individual first signing and submitting to
the entity documents to secure the lien and reimbursement rights
of the entity and providing information reasonably related to the
entity’s investigation of its liability for coverage.”). ECF No. 1-2
at 118-19. Rudel dismissed that suit after HMAA agreed to waive
its requirement that he sign the Reimbursement Agreement before he could receive medical benefits. See ECF No. 1-2 at 157.

App. 34
B. Legal Background
1. HRS §§ 431:13-103(a)(10) and 663-10
The Hawaii Insurance Code, subject to certain exceptions, defines “unfair methods of competition and
unfair or deceptive acts or practices in the business of
insurance” as including the following:
(10) Refusing to provide or limiting coverage
available to an individual because the individual may have a third-party claim for recovery
of damages; provided that:
(A) Where damages are recovered by judgment or settlement of a third-party claim,
reimbursement of past benefits paid shall
be allowed pursuant to section 663-10;
HRS § 431:13-103(a) (emphasis added).3
3

Section 431:13-103(a)(10) continues in part:
(B) This paragraph shall not apply to entities licensed
under chapter 386 [regarding workers compensation]
or 431:10C [regarding motor vehicle insurance]; and
(C) For entities licensed under chapter 432 [mutual
benefit societies] or 432D [health maintenance organizations]:
(i) It shall not be a violation of this section to refuse
to provide or limit coverage available to an individual
because the entity determines that the individual reasonably appears to have coverage available under chapter
386 or 431:10C; and
(ii) Payment of claims to an individual who may have
a third-party claim for recovery of damages may be conditioned upon the individual first signing and submitting
to the entity documents to secure the lien and reimbursement rights of the entity and providing information

App. 35
In turn, HRS § 663-10, entitled “Collateral sources;
protection for liens and rights of subrogation,” provides:
(a) In any civil action in tort, the court, before any judgment or stipulation to dismiss
the action is approved, shall determine the validity of any claim of a lien against the amount
of the judgment or settlement by any person
who files timely notice of the claim to the court
or to the parties in the action. The judgment
entered, or the order subsequent to settlement,
shall include a statement of the amounts, if
any, due and owing to any person determined
by the court to be a holder of a valid lien and
to be paid to the lienholder out of the amount
of the corresponding special damages recovered by the judgment or settlement. In determining the payment due the lienholder, the
court shall deduct from the payment a reasonable sum for the costs and fees incurred by the
party who brought the civil action in tort. As
used in this section, lien means a lien arising
out of a claim for payments made or indemnified from collateral sources, including health
insurance or benefits, for costs and expenses
arising out of the injury which is the subject
of the civil action in tort. If there is a settlement before suit is filed or there is no civil action
pending, then any party may petition a court of

reasonably related to the entity’s investigation of its
liability for coverage.

App. 36
competent jurisdiction for a determination of
the validity and amount of any claim of a lien.
HRS § 663-10 (emphases added).4

4

Section 663-10(b) (as enacted in 2002) continues:
(b) Where an entity licensed under chapter 432 [mutual benefit societies] or 432D [health maintenance organizations] possesses a lien or potential lien under
this section:
(1) The person whose settlement or judgment is subject
to the lien or potential lien shall submit timely notice of a
third-party claim, third-party recovery of damages,
and related information to allow the lienholder or potential lienholder to determine the extent of reimbursement required. A refusal to submit timely notice shall
constitute a waiver by that person of section 431:13103(a)(10). An entity shall be entitled to reimbursement of any benefits erroneously paid due to untimely
notice of a third-party claim;
(2) A reimbursement dispute shall be subject to binding arbitration in lieu of court proceedings if the party
receiving recovery and the lienholder agree to submit
the dispute to binding arbitration, and the process used
shall be as agreed to by the parties in their binding arbitration agreement; and
(3) In any proceeding under this section to determine
the validity and amount of reimbursement, the court or
arbitrator shall allow a lienholder or person claiming a
lien sufficient time and opportunity for discovery and
investigation.
For purposes of this subsection:
“Timely notice of a third-party claim” means a reasonable time after any written claim or demand for damages, settlement recovery, or insurance proceeds is made
by or on behalf of the person.
“Third-party claim” means any tort claim for monetary
recovery or damages that the individual has against

App. 37
With §§ 431:13-103(a)(10) and 663-10, “the [Hawaii] legislature intended to limit a health insurer’s
right of subrogation[.]” Yukumoto v. Tawarahara, 140
Haw. 285, 291, 400 P.3d 486, 492 (2017).5 The legislative history and intent behind both provisions becomes critically important in resolving the Motions.
As explained to follow, resolution ultimately turns on
whether this Hawaii law is “specifically directed toward entities engaged in insurance,” Kentucky Ass’n of
Health Plans v. Miller, 538 U.S. 329, 342 (2003), such
that it is—or parts of it are—“saved” from preemption for purposes of ERISA § 514(b)(2)(A), 29 U.S.C.
§ 1144(b)(2)(A). The court thus explains relevant aspects of this history in detail, and as set forth in Yukumoto.
In invalidating a contractual subrogation clause
in a non-ERISA health insurance plan, Yukumoto recognized that:
any person, entity, or insurer, other than the entity licensed under chapter 432 or 432D.
Section 663-10(b), which applies to “entities licensed under chapter 432 or 432D,” was added in 2002 by Act 228, Hawaii Session
Laws. As detailed later, Act 228 also amended § 431:13-103(a)(10).
5
In this context, “[s]ubrogation exists to provide insurers
with a mechanism to recover the costs of reimbursing injured insured parties.” Yukumoto, 140 Haw. at 292, 400 P.3d at 493 (internal quotation marks and citations omitted). It is “premised on
the notion that an insured should not be able to unduly benefit
from a loss and thereby enjoy a double recovery from both the insurer and the tortfeasor.” Id. at 291, 400 P.3d at 492 (internal
quotation marks and citations omitted). Thus, for present purposes, the court uses the terms “reimbursement” and “subrogation” synonymously.

App. 38
[s]ituations involving tort recovery in personal insurance contexts, like the instant case
[of health insurance], often include payment
by the tortfeasor for intangible losses such as
life, death, health, pain and suffering, and
physical well being, where it is difficult to ascertain exact measurements of loss. In this
way, recovery for medical insurance benefits
and tort damages . . . does not necessarily produce a windfall or duplicative recovery to the
insured.
140 Haw. at 294, 400 P.3d at 495. And after analyzing
the statutory language of both provisions and the legislative history, Yukumoto concluded that “the [Hawaii]
legislature limited the type of damages from which a
lienholder may be reimbursed. The legislature did not
provide that the lienholder may be reimbursed from an
insured’s recovery of general damages which, as mentioned previously, are difficult to determine exactly.” Id.
at 295, 400 P.3d at 496. Rather, § 663-10 provides that
“the amount due and owing to any holder of a valid
lien, [is] to be paid to the lienholder from ‘special damages recovered by the judgment or settlement.’ ” Id.
The idea is that an injured person should not receive a
“windfall”—if someone recovers damages from a tortfeasor for medical costs that were already (or will be)
paid by a health insurer, the insured should not be entitled to double-recovery. A health insurer should be
entitled to (and limited to) reimbursement from “special damages” obtained from a tort judgment or settlement.

App. 39
“[T]he legislative history of HRS §§ 663-10 and
431:13-103(a)(10) demonstrates that a health insurer’s
sole rights to reimbursement and subrogation are provided for in those statutes, and that a health insurer’s
right to subrogation is therefore limited.” Id. at 295-96,
400 P.3d at 496-97 (emphasis added). The statutory regime “allow[s] for collateral sources to be reimbursed
when special damages recovered in a judgment or settlement duplicate[ ] the amounts they had paid.” Id. at
296, 400 P.3d at 497.
In particular, the Hawaii legislature passed Act 29
in 2000, “to ‘make it an unfair or deceptive act to limit
or withhold coverage under insurance policies because
a consumer may have a third-party claim for damages.’ ” Id. (quoting H. Stand. Comm. Rep. No. 1330-00,
in 2000 House J. at 1515).6 “Act 29 made clear that collateral sources were required to pay benefits, and were
limited to reimbursement under [§ 663-10] in thirdparty personal injury situations.” Id. (citing H. Stand.
Comm. Rep. No. 1330-00).
And in 2001, “the legislature considered and subsequently passed [Senate Bill (“S.B.”)] 940, which
amended . . . HRS [§] 431:13-103(a)(10) to expressly
make it an unfair insurance practice for a health
6

Article 13 of Hawaii’s Insurance Code, HRS §§ 431:13-101
et seq. (entitled Unfair Methods of Competition and Unfair and
Deceptive Acts and Practices in the Business of Insurance) was
originally enacted in 1987 as part of a comprehensive restructuring of Hawaii’s insurance code. See 1987 Haw. Sess. Laws Act 347,
§ 2. Section 663-10 was originally enacted in 1986. See 1986 Haw.
Sess. Laws Act 2 (reprinted at ECF No. 58-4).

App. 40
insurer to limit or exclude insurance coverage to an insured who has a third-party claim for damages.” Id. at
297, 400 P.3d at 498 (emphasis added) (citing S. Stand.
Comm. Rep. No. 107, in 2001 Senate J. at 987). “The
purpose of S.B. 940 was to ‘make mutual benefit societies (societies) and health maintenance organizations
(HMOs) subject to the unfair methods of competition
and unfair and deceptive acts and practices of the business of insurance, for refusing to provide or limiting
coverage to an individual having a third-party claim
for damages.” Id. (quoting S. Stand. Comm. Rep. No.
107).
That is, S.B. 940 (which was enacted in 2002 by
Act 228 of the Session Laws of Hawaii (“SLH”)) specifically amended § 431:13-103(a)(10) to clarify that “Act
29, SLH 2000, established lien rights for health insurance benefits paid[.]” Id. (quoting testimony of the
State Insurance Commissioner). The legislature’s intent in amending § 431:13-103 was “that societies and
HMOs promptly pay the benefits owing under their
policies, and recoup their payments from a third-party
claim by lien as provided under section 663-10, HRS.”
Id. (quoting S. Stand. Comm. Rep. No. 107). Similarly,
in passing Act 228, the legislature explained:
Refusing to provide or limiting health coverage to persons who have third-party claims for
damages is not permitted, except for reimbursement under section 663-10, Hawaii Revised Statutes (HRS). This measure makes
such acts unfair insurance practices under
article 13 of the insurance code to eliminate

App. 41
any doubt that health insurers have always
been subject to these limitations under section 663-10, HRS. Health insurers continue to
be entitled to reimbursement of their subrogation liens under section 663-10, HRS.
Id. at 298, 400 P.3d at 499 (quoting Conf. Comm. Rep.
No. 67-02, in 2002 House J. at 1783). Act 228 removed
statutory language appearing to exempt health insurers, and added § 431:13-103(a)(10)(C), applicable to
“entities licensed under chapter 432 or 432D.” 2002
Haw. Sess. Laws Act 228, § 1. Act 228 also, as noted
earlier, added several paragraphs to § 663-10, specific
to those entities. Id. § 2.
2. HMAA’s Plan
In contrast to this Hawaii law, HMAA’s Plan defines a right of reimbursement that is not limited to
special damages. Specifically, the Plan’s Summary Plan
Description (“SPD”) provides, in part, as follows:
If you have complied with the rules above [regarding cooperation], we will pay benefits in
connection with the injury or illness to the extent that the medical treatment would otherwise be a covered benefit payable under this
SPD. However, we shall have a right to be reimbursed for any benefits we provide, from
any recovery received from or on behalf of any
third party or other source of recovery in connection with the injury or illness, including,
but not limited to, proceeds from any:

App. 42
•

Settlement, judgment, or award;

•

Motor vehicle insurance including liability insurance or your underinsured or uninsured motorist coverage;

•

Workplace liability insurance;

•

Property and casualty insurance;

•

Medical malpractice coverage; or

•

Other insurance.

We shall have a first lien on such recovery proceeds, up to the amount of total benefits we
pay or have paid related to the injury or illness. You must reimburse us for any benefits
paid, even if the recovery proceeds obtained (by
settlement, judgment, award, insurance proceeds, or other payment):
•

Do not specifically include medical expenses;

•

Are stated to be for general damages only;

•

Are for less than the actual loss or alleged
loss suffered by you due to the injury or
illness;

•

Are obtained on your behalf by any person or entity, including your estate, legal
representative, parent, or attorney;

•

Are without any admission of liability,
fault, or causation by the third party or
payer.

....

App. 43
If we are entitled to reimbursement of payments made on your behalf under these rules,
and we do not promptly receive full reimbursement pursuant to our request, we shall
have a right of set-off from any future payments payable on your behalf under this SPD.
....
The amount of recovery to be reimbursed or
otherwise paid to HMAA is not reduced by
any expenses, such as attorneys’ fees incurred
in connection with the recovery. Accordingly,
the common fund doctrine is not to be applied.
In addition, the “make-whole” rule of insurance law, which holds that an insurance company may not enforce a right of subrogation or
third-party responsibility until the insured
party has been fully compensated for any injuries, also does not apply.
ECF No. 49-5 at 4-5 (emphases added).
In short—in conflict with Hawaii law—HMAA’s
Plan provides that HMAA’s reimbursement rights apply even if the recovery proceeds are not for special
damages, i.e., the proceeds do not include medical expenses or are stated to be for general damages only. Id.
The present action arises from this conflict: Rudel contends that the Plan’s language is invalid under Hawaii
law; HMAA contends that ERISA preempts that Hawaii law, and seeks to enforce the Plan’s reimbursement provisions.

App. 44
C. Procedural History
1. HMAA Removes the Action From State Court,
and Rudel Moves to Remand
On December 9, 2015, Rudel filed this Petition
against HMAA “pursuant to HRS §§ 431:13-103(a)(10)
and 663-10” in the Third Circuit Court, State of Hawaii. ECF No. 1-2. HMAA then removed the action to
this court on December 29, 2015, asserting federal
jurisdiction under ERISA §§ 502(a) & (e), 29 U.S.C.
§§ 1132(a) & (e). ECF No. 1 at 2. HMAA’s Notice of Removal alleged that “a petition for determination of validity and amount of lien filed in state court that falls
within the scope of the civil enforcement provisions of
ERISA is completely preempted and hence removable
to federal court.” Id. at 3-4 (citing Aetna Health, Inc. v.
Davila, 542 U.S. 200 (2004) (other citation omitted)).
Rudel filed a Motion to Remand on January 27,
2016, arguing that HMAA improperly removed the action. ECF No. 10. Extensive proceedings ensued to adjudicate the Motion to Remand. And because those
proceedings are particularly relevant to understanding the current Motions, the court describes that background in detail.
On March 31, 2016, a magistrate judge issued
Findings and a Recommendation (“F&R”), recommending that the Court remand the action to state court
for lack of subject-matter jurisdiction. ECF No. 15. On
April 14, 2016, HMAA objected to the F&R pursuant
to 28 U.S.C. § 636(b)(1) and Federal Rule of Civil

App. 45
Procedure 72(b), ECF No. 18, and Rudel responded to
HMAA’s Objection on April 28, 2016, ECF No. 20.
At that time, the same issue regarding “complete
preemption” of §§ 431:13-103(a)(10) and/or 663-10 by
ERISA § 502(a) was pending in the District of Hawaii
before Judge Susan Oki Mollway in Noetzel v. Hawaii
Medical Service Association, Civ. No. 15-00310 SOMKJM. One day before Rudel’s Response was filed, on
April 27, 2016, Judge Mollway issued an order in Noetzel rejecting a similar F&R that had recommended remanding that action. See Noetzel v. Haw. Med. Serv.
Ass’n (“Noetzel I”), 183 F. Supp. 3d 1094, 1111 (D. Haw.
2016) (concluding that the court had jurisdiction under
ERISA § 502). Accordingly, in May 2016, the parties in
this case filed supplemental briefing to address Noetzel
I. ECF Nos. 23, 24. On June 14, 2016, this court stayed
consideration of the Motion to Remand, pending a decision by Judge Mollway on a subsequent motion for
reconsideration of Noetzel I. ECF No. 25. And on July
27, 2016, Judge Mollway issued a detailed order denying reconsideration of Noetzel I. See Noetzel v. Haw.
Med. Serv. Ass’n (“Noetzel II”), 2016 WL 4033099 (D.
Haw. July 27, 2016).
2. The Action Was Properly Removed Under
§ 502(a)
On August 1, 2016—having considered the original and supplemental briefing, as well as Noetzel I and
Noetzel II—this court issued an order also rejecting the
F&R and denying the Motion to Remand. ECF No. 26;

App. 46
Rudel v. Haw. Mgmt. All. Ass’n, 2016 WL 4083320 (D.
Haw. Aug. 1, 2016). Applying a two-part test articulated by the Supreme Court in Davila, the court concluded that HMAA properly invoked ERISA § 502(a)’s
complete preemption exception to the well-pleaded
complaint rule.7 That is, although Rudel’s “well-pleaded”
Petition invokes only state law (§§ 431:13-103(a)(10)
and/or 663-10), “ ‘[w]hen a federal statute wholly displaces the state-law cause of action through complete
pre-emption,’ the state claim can be removed.” Davila,
542 U.S. at 207 (quoting Beneficial Nat’l Bank v. Anderson, 539 U.S. 1, 8 (2003)). “This is so because ‘when the
federal statute completely pre-empts the state-law
cause of action, a claim which comes within the scope
of that cause of action, even if pleaded in terms of state
law, is in reality based on federal law.’ ” Id. at 207-08
(quoting Anderson, 539 U.S. at 8).
Specifically, ERISA § 502(a), “sets forth a comprehensive civil enforcement scheme that completely
preempts state-law causes of action within the scope
of these civil enforcement provisions.” Fossen v. Blue
Cross & Blue Shield of Mont., Inc., 660 F.3d 1102, 1107

7

Under Davila, a state law claim is completely preempted
if (1) the plaintiff “could have brought his claim under ERISA
§ 502(a)(1)(B) . . . [and (2)] “there is no other independent legal
duty that is implicated by a defendant’s actions.” Davila, 542 U.S.
at 210. “The complete preemption doctrine applies to the other
subparts of § 502(a) as well.” Fossen v. Blue Cross & Blue Shield
of Mont., Inc., 660 F.3d 1102, 1108 (9th Cir. 2011) (citation omitted).

App. 47
(9th Cir. 2011) (citations, quotation marks, and brackets omitted). ERISA § 502(a) provides:
A civil action may be brought—
(1)

by a participant or beneficiary—
....
(B) to recover benefits due to him under
the terms of his plan, to enforce his rights
under the terms of the plan, or to clarify
his rights to future benefits under the
terms of the plan[.]

29 U.S.C. § 1132(a). ERISA § 502(a)(3) further authorizes a “participant, beneficiary, or fiduciary (A) to enjoin any act or practice which violates any provision
of this subchapter or the terms of the plan, or (B) to
obtain other appropriate equitable relief (i) to redress
such violations or (ii) to enforce any provisions of
this subchapter or the terms of the plan[.]” 29 U.S.C.
§ 1132(a)(3). “[A]ny state-law cause of action that duplicates, supplements, or supplants the ERISA civil enforcement remedy [in § 502(a)] conflicts with the clear
congressional intent to make the ERISA remedy exclusive and is therefore [completely] pre-empted.” Davila,
542 U.S. at 209.
This court determined that Rudel is seeking “to recover benefits due to him under the terms of his plan,”
or “to enforce his rights under the terms of the plan.”
Rudel, 2016 WL 4083320, at *2 (quoting § 502(a)(1)(B)).
He also could have filed a § 502(a) action to “clarify his

App. 48
rights to future benefits under the terms of the plan.”
29 U.S.C. § 1132(a)(1)(B). As stated in Noetzel I,
Under ERISA § 502(a)(3), [petitioner] could
have brought a claim to enjoin [the insurer]
from enforcing those parts of the Plan that required that [the insurer] be reimbursed. [Petitioner] could have even asked the court to
declare that the Plan’s reimbursement terms
were overbroad or illegal and to enforce the
remaining terms of the Plan.
183 F. Supp. 3d at 1106 (citations omitted); see also
Noetzel II, 2016 WL 4033099, at *3 (“[Petitioner] could
have brought a claim asserting that [the insurer’s] lien
did not entitle [the insurer] be reimbursed for benefits
paid to [petitioner] under the plan because the plan’s
terms permitting reimbursement of settlement amounts
equivalent to general damages are allegedly void under Haw. Rev. Stat. § 663-10.”). Further, the Plan’s benefits and terms (and interpretation and validity of those
terms) are squarely at issue, as Davila also requires.
Thus, the court concluded that Rudel’s Petition is completely preempted under § 502(a). Rudel, 2016 WL
4083320, at *4.
3. This is Now a § 502(a) Action
Because the case was properly removed to federal
court, the action now continues as if it had been filed
as a § 502(a) action. See, e.g., Marin Gen. Hosp. v. Modesto & Empire Traction Co., 581 F.3d 941, 945 (9th Cir.
2009) (“If a complaint alleges only state-law claims, and
if these claims are entirely encompassed by § 502(a),

App. 49
that complaint is converted from ‘an ordinary state
common law complaint into one stating a federal claim
for purposes of the well-pleaded complaint rule.”) (quoting Metro. Life Ins. Co. v. Taylor, 481 U.S. 58, 65-66
(1987)); Singh v. Prudential Health Care Plan, Inc., 335
F.3d 278, 292 (4th Cir. 2003) (“Because we have found
that at least some of Singh’s claims are completely
preempted, leading to their conversion into federal
claims and their removal to federal court, those completely preempted claims must now be decided by the
district court”); Darcangelo v. Verizon Commc’ns, Inc.,
292 F.3d 181, 195 (4th Cir. 2002) (“[W]hen a claim under state law is completely preempted and is removed
to federal court because it falls within the scope of
§ 502, the federal court should not dismiss the claim as
preempted, but should treat it as a federal claim under
§ 502.”).
Proceeding as a § 502(a) action, Rudel filed his
“Motion for Determination of Validity of Claim of Lien
of [HMAA]” on April 25, 2017. ECF No. 38. HMAA responded with its Motion for Partial Summary Judgment on May 8, 2017. ECF No. 40. The parties filed
corresponding Oppositions and Replies, ECF Nos. 49,
50, 52, 53, and the court heard both Motions on July
24, 2017. ECF No. 54. At the court’s request, ECF No.
55, the parties filed supplemental briefs, ECF Nos. 60,
61. The Motions are now ready to be decided.

App. 50
III.

ANALYSIS

The parties agree that HMAA’s reimbursement
provisions conflict with Hawaii law. Rather, the dispositive question is whether Hawaii law is preempted, at
least where an ERISA plan is at issue.8
A. ERISA Preemption
This is a complicated area of the law. And it’s important to understand that two distinct ERISA preemption doctrines are involved. That is,
There are two strands to ERISA’s powerful
preemptive force. First, ERISA section 514(a)
expressly preempts all state laws “insofar
as they may now or hereafter relate to any
employee benefit plan,” 29 U.S.C. § 1144(a),
but state “laws . . . which regulate insurance,
banking, or securities” are saved from this
preemption. 29 U.S.C. § 1144(b)(2)(A).
Second, ERISA section 502(a) contains a
comprehensive scheme of civil remedies to
enforce ERISA’s provisions. See 29 U.S.C.
§ 1132(a). A state cause of action that would
fall within the scope of this scheme of remedies is preempted as conflicting with the intended exclusivity of the ERISA remedial
scheme, even if those causes of action would

8

For a non-ERISA plan, Yukumoto held that the statutes
take precedence over contrary contractual subrogation rights. 140
Haw. at 299, 400 P.3d at 500.

App. 51
not necessarily be preempted by section
514(a).
Cleghorn v. Blue Shield of Cal., 408 F.3d 1222, 1225
(9th Cir. 2005) (citation and internal brackets omitted).
Litigants and courts sometimes confuse the two
doctrines, and occasionally use their terminology interchangeably. See, e.g., Marin Gen. Hosp., 581 F.3d at
944-46 (“The parties in this case have not clearly understood the difference between complete preemption
under ERISA § 502(a) . . . and conflict preemption under ERISA § 514(a). . . . We may have been partially
responsible for the parties’ confusion [because] . . .
[s]ome of our prior opinions dealing with complete
preemption under § 502(a) have used the terminology
‘relate to’ even though that terminology is relevant to
conflict preemption under § 514(a) rather than complete preemption under § 502(a).”) (citations omitted).
Further, applying § 514 is sometimes difficult because
“congressional language seems simultaneously to preempt everything and hardly anything[.]” Rush Prudential HMO, Inc. v. Moran, 536 U.S. 355, 365 (2002).
“While Congress occasionally decides to return to the
States what it has previously taken away, it does not
normally do both at the same time.” Metro. Life Ins. Co.
v. Mass., 471 U.S. 724, 740 (1985).
“Complete preemption under § 502(a) is ‘really a
jurisdictional rather than a preemption doctrine, as it
confers exclusive federal jurisdiction in certain instances where Congress intended the scope of a federal
law to be so broad as to entirely replace any state-law

App. 52
claim.’ ” Marin Gen. Hosp., 581 F.3d at 945 (quoting
Franciscan Skemp Healthcare, Inc. v. Cent. States Joint
Bd. Health & Welfare Tr. Fund, 538 F.3d 594, 596 (7th
Cir. 2008) (brackets omitted)). “But . . . § 502(a) conflict
[or “complete”] preemption is distinct from express
preemption [under § 514].” Fossen, 660 F.3d at 1111 (citation omitted). “Whether or not the state [law] is exempt from § 514 . . . express preemption, it may still
be conflict preempted under § 502(a)[.]” Id. at 1112.
That is, “[p]reemption under ERISA § 502(a) is not affected by [§ 514].” Cleghorn, 408 F.3d at 1226 n.6.
“[T]he question whether a law or claim ‘relates to’ an
ERISA plan is not the test for complete preemption
under § 502(a)(1)(B). Rather, it is the test for conflict
preemption under § 514(a).” Marin Gen. Hosp., 581
F.3d at 949.
With this background, HMAA raises two interrelated arguments in favor of preemption: First, it argues
that the Plan’s terms control—regardless of § 514—because the court has already determined that Hawaii
law is completely preempted under § 502(a). Second, it
maintains that Hawaii law is expressly preempted under ERISA § 514(a), and is not saved from such express
preemption under ERISA § 514(b)(2)(A). The court addresses each argument in turn.
B. Hawaii Law Can Provide The “Relevant Rule
of Decision” For This § 502(a) Action
As detailed previously, the court concluded when
denying Rudel’s Motion to Remand that Rudel was

App. 53
seeking a remedy under Hawaii law that could have
been brought under § 502(a), and there was no other
independent legal duty implicated by HMAA’s actions. Rudel, 2016 WL 4083320, at *2-3. Because the
court concluded that ERISA completely preempts Rudel’s state-law cause of action under § 502(a), HMAA
argues that the court can summarily conclude that the
subrogation/reimbursement provisions in its ERISA
Plan are valid regardless of whether state law might
otherwise be “saved” from express preemption under § 514(b)(2)(A). HMAA points to Davila, which reasoned that “[u]nder ordinary principles of conflict
pre-emption . . . even a state law that can arguably be
characterized as ‘regulating insurance’ will be preempted if it provides a separate vehicle to assert a
claim for benefits outside of, or in addition to, ERISA’s
remedial scheme.” Davila, 542 U.S. at 217-18.
And, at first glance, HMAA’s argument appears to
make sense. Usually, a “preempted” law is not enforceable, and here “[p]reemption under ERISA § 502(a) is
not affected by [§ 514(b)(2)(A)].” Cleghorn, 408 F.3d at
1226 n.6. Indeed, HMAA relies on a subsequent order
in Noetzel that appears to have adopted such reasoning
in cursorily granting summary judgment on the merits
to the health insurer:
The present motion seeks a substantive ruling that Noetzel’s claims are preempted by
ERISA. That is precisely what the court determined in declining to remand Noetzel’s
claims. That is, although Noetzel pled her
claims as if they were based purely on state

App. 54
law, this court found federal questions raised
because Noetzel’s claims were completely
preempted by ERISA. Consistent with the
reasoning in both the denial of remand and
the denial of reconsideration of that remand
order, this court grants partial summary judgment to HMSA, determining that Noetzel’s
claims are preempted by ERISA for the very
reasons set forth in this court’s earlier orders
on the subject.
Noetzel v. Haw. Med. Serv. Ass’n, 2016 WL 7444939, at
*3 (D. Haw. Dec. 27, 2016).
Upon closer examination, however, the issue is not
so simple. Such reasoning does not fully recognize the
distinction between § 502(a) and § 514. Moreover, even
if a state-law claim “duplicates, supplements, or supplants” a § 502(a) remedy, it does not necessarily follow
that parts of that state law cannot be enforced. Rather,
sometimes saved state law provides a “relevant rule of
decision” for a § 502(a) action. See, e.g., UNUM Life Ins.
Co. of Am. v. Ward, 526 U.S. 358, 377 (1999) (reasoning
that because a state law “notice-prejudice rule complements rather than contradicts” ERISA’s rules regarding handling of claims, it “supplied the relevant rule of
decision for this § 502(a) suit”); id. at 376 n.7 (“Ward
has sued under § 502(a)(1)(B) for benefits due, and
seeks only the application of saved state insurance law
as a relevant rule of decision in his § 502(a) action.”);
Roche v. Aetna, Inc., 167 F. Supp. 3d 700, 709 (D.N.J.
2016) (“[P]reemption of a claim does not mean preemption of an entire theory of suit. A state law claim
may be preempted, but if the claim is under a law or

App. 55
regulation that is saved under ERISA § 514(b)(2)(A),
then that law or regulation can ‘suppl[y] the relevant
rule of decision for [an ERISA] § 502(a) suit’ so long as
it is not providing relief above and beyond what ERISA
§ 502 would provide.”) (quoting Ward, 526 U.S. at 377).
In short, the terms of the state law must be examined.
Stated succinctly, “ERISA’s saving clause still ha[s]
meaning[.]” Haw. Mgmt. All. Ass’n v. Ins. Comm’r, 106
Haw. 21, 33, 100 P.3d 952, 964 (2004). “[T]he Hawaii
legislature may continue to ‘regulate insurance’ so long
as the legislature does not create a ‘cause of action that
duplicates, supplements, or supplants the ERISA civil
enforcement remedy.’ ” Id. (quoting Davila, 542 U.S. at
209) (brackets omitted)). “[A] state law that ‘regulates
insurance’ is not preempted so long as it does not create a new claim for relief and does not enlarge a claim
for benefits beyond that available in § [502(a)].” Id. at
34, 100 P.3d at 965.
Singh exemplifies the analysis (in nearly the same
context that this court now faces). In Singh, the Fourth
Circuit examined a Maryland anti-subrogation law, ultimately concluding that it was saved from express
preemption under § 514(b)(2)(A) as a law that “regulates insurance” under the test enunciated in Miller,
538 U.S. at 342. See Singh, 335 F.3d at 286. In so doing,
it reasoned:
[W]hile a State law purporting to supply additional remedies to claimants under ERISA
plans would impermissibly compete with
§ 502(a) remedies, and therefore not be saved
from preemption as a result of the limited

App. 56
exception from the saving clause, a State law
simply mandating or prohibiting certain terms
of policy coverage does not force a choice between State regulation of insurance and the
prescribed remedies of § 502(a) and therefore
may be saved under § 514(b)(2)(A).
Id. at 287-88. The Maryland anti-subrogation provision “does not depend on any particular remedy but operates simply to define the scope of a benefit provided
to members of HMOs in Maryland—i.e., entitlement
to retain their full benefit and not have it reduced by
recoveries from third parties.” Id. at 288-89. “In this
sense, it does not differ from any other State law mandating or regulating a contractual benefit.” Id. at 289.
Because the law “does not supplement or supplant
ERISA’s exclusive remedies . . . it remains ‘saved’ and
therefore ‘supplies the relevant rule of decision’ in a
§ 502(a) claim to enforce the provision of State law[.]”
Id. (quoting Ward, 526 U.S. at 377). “A State law preserved as a regulation of insurance under § 514(b)(2)(A)
may supply a substantive term or mandate a benefit in
an employee benefit plan, but once that term or benefit
becomes part of the plan, a suit to enforce it may only
be brought under § 502(a).” Id.
Singh went on to examine whether the action had
been properly removed from state court under § 502(a).
It faced a complaint that “relying on state-law causes
of action . . . seeks some remedies that undoubtedly fall
within the scope of § 502(a), even if others might fall
outside of its scope.” Id. at 290. For that reason, the action was completely preempted, and the petitioner was

App. 57
limited to “those remedies set forth in § 502(a).” Id. at
292. But Singh recognized that the relief sought—application of the Maryland anti-subrogation law—could
continue in district court in a § 502(a) action:
Singh’s State common-law claims are claims
for benefits due under the terms of an ERISA
plan and are therefore “completely preempted,”
such that federal removal jurisdiction exists.
In reaching the conclusion that Singh’s claims
seek to enforce a term of the Prudential plan,
we conclude that, although the Maryland
HMO Act ‘relates’ to an employee benefit plan,
it is saved as a State regulation of insurance
that does not conflict with § 502(a) of ERISA,
such that it defines a term of the ERISA plan.
Because Singh’s claims seek to enforce a term
of the Prudential plan, as so modified by State
law, they are within in the scope of § 502(a)
and must be adjudicated as federal claims under that section.
Id. at 292-93. Rather than upholding the dismissal,
Singh remanded “for consideration of plaintiff ’s claims
to the extent they fall within the scope of § 502(a) of
ERISA,” while “express[ing] no opinion on whether all
of the relief requested in the current complaint is consistent with the remedies supplied under § 502(a).” Id.
at 293.
This analysis applies here. Parts of § 663-10 do
create a cause of action that “duplicates, supplements,
or supplants” a § 502(a) remedy. It requires “the court
. . . [to] determine the validity of any claim of a lien
against the amount of the judgment or settlement” in

App. 58
“any civil action in tort.” HRS § 663-10(a). And where
there is no civil action pending, it authorizes “any
party [to] petition a court of competent jurisdiction for
a determination of the validity and amount of any
claim of lien.” Id. At least to that extent, § 663-10
clearly supplements ERISA’s remedial scheme under
§ 502(a), and so the action is completely preempted for
purposes of removal jurisdiction.
But the Petition must now be decided as a § 502(a)
action. As such, § 431:13-103(a)(10) can still apply (if
it is saved from express preemption as a law “which
regulates insurance” under § 514(b)(2)(A)). By itself,
§ 431:13-103(a)(10) does not provide a remedy.9 It provides “no new cause of action under state law and
authorizes no new form of ultimate relief.” Rush Prudential, 536 U.S. at 379. Rather, as in Singh, it can “operate[ ] simply to define the scope of a benefit provided”
to members of HMAA’s Plan, “i.e., entitlement to retain
their full benefit and not have it reduced by recoveries
from third parties.” Singh, 335 F.3d at 288-89. That is,
§ 431:13-103(a)(10)—which specifically incorporates
§ 663-10’s limitations on the scope of reimbursement
allowable under Hawaii law—can supply the relevant
9

If there were a private remedy to enforce § 431:13-103(a)(10), it
might well be completely preempted by § 502(a). But, as HMAA itself argues, there is no private cause of action to enforce § 431:13103. ECF No. 53 at 8-9; see, e.g., HRS § 431:13-107 (“All remedies,
penalties and proceedings set forth in this article are to be invoked solely and exclusively by the [Insurance] commissioner.”);
Wittig v. Allianz, A.G., 112 Haw. 195, 206 n.5, 145 P.3d 738, 749
n.5 (Haw. Ct. App. 2006) (“There is no private cause of action for
violations of HRS § 431:13-103[.]”).

App. 59
rule of decision in the § 502(a) action. See also Roche,
167 F. Supp. 3d at 710 (“The [saved] subrogation prohibition contained [in a New Jersey administrative
code] therefore ‘supplies the relevant rule of decision’
for any ERISA § 502(a) claim.”) (quoting Ward, 526
U.S. at 377).
HMAA argues that because its Plan is an ERISA
plan, its terms must apply precisely because they conflict with § 431:13-103(a). ECF No. 40-1 at 16; ECF No.
49 at 9 (“[I]n an action brought under § 502(a)(3) based
on an equitable lien by agreement, the terms of the
ERISA plan govern.”) (quoting US Airways, Inc. v. McCutchen, 569 U.S. 88, 106 (2013)). But HMAA takes
this conclusory phrase too far—the Supreme Court has
long rejected an insurer’s “ ‘contra plan term’ argument
[which] overlooks controlling precedent and makes
scant sense.” Ward, 526 U.S. at 375. The Supreme
Court “ha[s] repeatedly held that state laws mandating insurance contract terms are saved from preemption under [§ 514(b)(2)(A)].” Id. (citations omitted).
Under HMAA’s interpretation, “States would be powerless to alter the terms of the insurance relationship
in ERISA plans; insurers could displace any state regulation simply by inserting a contrary term in plan
documents. This interpretation would virtually ‘rea[d]
the saving clause out of ERISA.’ ” Id. at 376 (quoting
Metro. Life, 471 U.S. at 741); see also, e.g., Orzechowski
v. Boeing Co. Non-Union Long-Term Disability Plan,
856 F.3d 686, 694 (9th Cir. 2017) (reiterating Ward’s
reasoning that “[t]his interpretation would virtually
‘read the savings clause out of ERISA’ ”).

App. 60
The remaining question, then, is whether
§ 431:13-103(a)(10) (and perhaps other aspects of
Hawaii law) is actually saved from preemption under § 514(b)(2)(A). The court now turns to that question.
C. Section 431:13-103(a) is Saved Under ERISA
§ 514(b)(2)(A)
To reiterate, ERISA § 514(a) expressly preempts
“any and all State laws insofar as they may now or
hereafter relate to any employee benefit plan.” 29
U.S.C. § 1144(a). But ERISA § 514(b)(2)(A) saves from
preemption “any law of any State which regulates insurance, banking, or securities.” Id. § 1144(b)(2)(A).
The parties do not dispute that the Hawaii law at
issue “relates to” HMAA’s Plan. See, e.g., Standard Ins.
Co. v. Morrison, 584 F.3d 837, 842 (9th Cir. 2009) (“It
is well-established that a law which regulates what
terms insurance companies can place in their policies
regulates insurance companies.”) (citations omitted);
Singh, 335 F.3d at 284 (“State antisubrogation laws ‘relate to’ an employee benefit plan.”) (citation omitted).
The question, however, is whether § 431:13-103(a)(10)
or § 663-10 “regulates insurance” for purposes of
§ 514(b)(2)(A).
A two-part test applies to make that determination: “First, the law must be ‘specifically directed toward entities engaged in insurance,’ and second, it
‘must substantially affect the risk pooling arrangement
between the insurer and the insured.’ ” Orzechowski,

App. 61
856 F.3d at 693 (quoting Miller, 538 U.S. at 342).
“ERISA’s saving clause ‘saves laws that regulate insurance, not insurers.’ ” Id. (quoting Miller, 538 U.S. at
334).
“A law is specifically directed toward entities engaged in insurance if it is ‘grounded in policy concerns
specific to the insurance industry.’ ” Id. (quoting Ward,
526 U.S. at 372). “[L]aws of general application that
have some bearing on insurers do not qualify.” Miller,
538 U.S. at 334. Under Miller, a state law that “impos[es] conditions on the right to engage in the business of insurance” falls under the savings clause. Id. at
338.
A law “substantially affects the risk-pooling arrangement between the insurer and insured” if it
alters “the scope of permissible bargains between insurers and insureds.” Standard Ins. Co. v. Morrison,
584 F.3d 837, 845 (9th Cir. 2009) (citing Rush Prudential, 536 U.S. at 355). A law that “dictates to the insurance company the conditions under which it must pay
for the risk that it has assumed . . . qualifies as a substantial effect on the risk pooling arrangement[.]” Miller, 538 U.S. at 339 n.3. This requirement is aimed at
ensuring that the laws in question are “targeted at insurance practices, not merely at insurance companies.”
Morrison, 584 F.3d at 844.
Applying these principles, § 431:13-103(a)(10)—
falling within Hawaii’s insurance code—easily meets
both prongs of Miller. As its legislative history set forth
earlier amply demonstrates, the law was specifically

App. 62
directed at insurance (indeed, at health insurance).
The legislature expressly prohibited health insurers
(subject to certain exceptions) from denying or limiting
coverage because an insured also has a third-party
claim for damages. Yukumoto, 140 Haw. at 297, 400
P.3d at 498. In return for that prohibition, § 431:13103(a)(10) allows insurers to seek reimbursement
for duplicative benefits received by an insured from a
collateral source. But it limits that reimbursement
right to special damages as set forth in § 663-10. Id. at
295-96, 400 P.3d at 496-97. This was the Hawaii legislature’s intent, and the statutory language is not ambiguous. An antisubrogation law that “directly controls
the terms of insurance contracts by invalidating any
subrogation provisions that they contain . . . does not
merely have an impact of [sic] the insurance industry;
it is aimed at it.” FMC Corp. v. Holliday, 498 U.S. 52,
61 (1990).
Moreover, as the legislative history demonstrates,
Act 29 (2000) and Act 228 (2002) in particular of the
Hawaii Session Laws are both laws “specifically directed” at health insurance, and both affect the “risk
pooling” arrangement between an insured and insurer.
See Yukumoto, 140 Haw. at 296-97, 400 P.3d at 497-98.
Those Acts amended both § 431:13-103(a) and § 66310. Indeed, on that basis, some non-remedial provisions of § 663-10 might also be saved,10 and would be
applicable as a “relevant rule of decision.” Ward, 526
10

HMAA admits that a court may find that ERISA preempts
conflicting portions of state law while leaving other portions intact. ECF No. 61 at 12.

App. 63
U.S. at 377. It is enough, however, that § 431:13103(a)(10) itself falls within ERISA § 502(b)(2)(A)’s
savings clause.
HMAA emphasizes that § 663-10 is not specifically directed at insurance because it refers to “any
person” (not just insureds) and defines reimbursement
rights of any “persons or entities” (not just insurers).
ECF No. 53 at 11. That is, it “regulates non-insurance
parties as well as insurance entities” and “applies in
all civil actions, not merely those in which liability
insurers will pay the judgment.” Levine v. United
Healthcare Corp., 402 F.3d 156, 165-66 (3d Cir. 2005).
Under this logic, those parts of § 663-10 are “laws of
general application that have some bearing on insurers,” Miller, 538 U.S. at 334, which is insufficient for
the law to be “specifically directed” at insurance. See
Levine, 402 F.3d at 166. Even so, however, this only
means that § 663-10 (or parts of it) is not a law “regulating insurance.” It does not mean that all subrogation laws do not “regulate insurance.” See, e.g., FMC
Corp., 498 U.S. at 61; Roche, 167 F. Supp. 3d at 710.
And it certainly does not change the conclusion that
§ 431:13-103(a)(10) is specifically directed at insurance, and saved from express preemption.
Accordingly, HMAA’s arguments fail; Rudel’s Petition survives HMAA’s ERISA-preemption challenge. It
is premature, however, to conclude that Rudel fully
prevails on his Motion, i.e., that HMAA is not entitled
to any reimbursement. Hawaii law still allows HMAA
to be reimbursed for any duplicative recovery that
Rudel may have obtained. This is a matter of proof.

App. 64
Although the settlement agreement between Rudel
and Allstate stated that it was a “general damages
only” settlement, it may be that HMAA could seek to
contest that proposition. Or it may be that HMAA
must concede that it has no evidence to contradict that
settlement agreement, especially here, given the catastrophic nature of Rudel’s injuries. Additional proceedings may be necessary to address the amount of
reimbursement (which could be zero).
IV.

CONCLUSION

This case aptly demonstrates that applying “the
morass of ERISA preemption law,” Morstein v. Nat’l
Ins. Servs., Inc., 93 F.3d 715, 718 (11th Cir. 1996), can
be confusing and difficult. And although at first blush
appearing to be inconsistent, the court’s conclusion
that relevant aspects of Hawaii law are saved from express preemption under ERISA § 514(b)(2) is indeed
consistent with the court’s prior Order concluding that
Rudel’s Petition is subject to “complete preemption”
under ERISA § 502(a) for purposes of removal jurisdiction. Although Rudel invoked remedial aspects of
Hawaii law (HRS § 663-10(a)) that § 502(a) completely
preempts, saved Hawaii law (at minimum, HRS
§ 431:13-103(a)(10)) still provides the rule of decision
in this particular § 502(a) action.
Consequently, Rudel’s Motion for Determination
of Validity of Claim of Lien of HMAA, ECF No. 38, is
GRANTED in part. HMAA’s corresponding Motion for
Partial Summary Judgment, ECF No. 40, is DENIED.

App. 65
HMAA’s claim of lien is limited to reimbursement of
any duplicative recovery that Rudel may have obtained. The court therefore directs the parties to meet
and confer, and then contact Magistrate Judge Richard
Puglisi by November 7, 2017 to schedule a status conference to address whether any further proceedings
are necessary to determine the amount, if any, of
HMAA’s lien (and if so, what type of proceeding, e.g.,
evidentiary submissions or a trial).
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, October 31, 2017.

[SEAL]

/s/ J. Michael Seabright
J. Michael Seabright
Chief United States
District Judge

Rudel v. Haw. Mgmt. All. Ass’n, Civ. No. 15-00539 JMSRLP, Order (1) Granting in Part Petitioner’s Motion
for Determination of Validity of Lien, ECF No. 38; and
(2) Denying Respondent’s Motion for Partial Summary
Judgment, ECF No. 40

